                        U.S. Environmental Protection Agency                                                     09-P-0227
                                                                                                            August 31, 2009
                        Office of Inspector General


                        At a Glance
                                                                               Catalyst for Improving the Environment


Why We Did This Review              Results of Technical Network Vulnerability
The Office of Inspector
                                    Assessment: EPA’s Research Triangle Park
General contracted with             Finance Center
Williams, Adley & Company,
LLP, to conduct the annual           What Williams, Adley & Company, LLP, Found
audit of the U.S.
Environmental Protection            Vulnerability testing conducted in April 2009 of EPA’s Research Triangle Park
Agency’s (EPA’s) compliance         Finance Center network identified Internet Protocol addresses with several high-
with the Federal Information        risk vulnerabilities. Research Triangle Park personnel took immediate action to
Security Management Act             remediate these vulnerabilities. Therefore, we are closing this audit report upon
(FISMA). Williams, Adley &          issuance in our audit tracking system.
Company, LLP, conducted the
network vulnerability testing       Due to the sensitive nature of the report’s technical findings, the full report is not
of the Agency’s network             available to the public.
devices located at EPA’s
Finance Center in Research
Triangle Park, North Carolina.


Background

Williams, Adley & Company,
LLP conducted network
vulnerability testing to
identify high risk
vulnerabilities. Williams,
Adley & Company, LLP
presented the test results to the
appropriate EPA officials to
remediate the weaknesses or
document planned actions to
resolve the vulnerability.



For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.
